 DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


    Independent Review of The U.S. Coast 

     Guard’s Reporting of FY 2007 Drug 

       Control Performance Summary 





OIG-08-43                    April 2008
                                                                           Office of Inspector General

                                                                           U.S. Department of Homeland Security
                                                                           Washington, DC 20528




                                            April 18, 2008


                                                Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the results of the review of the Performance Summary Report of the U.S. DHS’
Coast Guard (USCG) for the year ended September 30, 2007, for the Office of National Drug
Control Policy (ONDCP). We contracted with the independent public accounting firm KPMG LLP
to perform the review. USCG’s management prepared the Performance Summary Report and
Management Assertions to comply with the requirements of the ONDCP Circular, Drug Control
Accounting, dated May 1, 2007. We do not express an opinion on the Performance Summary Report
and Management Assertions.

It is our hope that the information in this report will continue to result in effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                                Richard L. Skinner 

                                                Inspector General 

                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                         Independent Accountants' Report


Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Performance Summary Report of the U.S. Department of Homeland
Security's (DHS) U.S. Coast Guard (USCG) for the year ended September 30, 2007. We have also
reviewed the accompanying management's assertions for the year ended September 30, 2007. USCG's
management is responsible for the Performance Summary Report and the assertions.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Performance Summary Report
and management's assertions. Accordingly, we do not express such an opinion.

Management of USCG prepared the Performance Summary Report and management's assertions to
comply with the requirements of the Office of National Drug Control Policy (ONDCP) Circular, Drug
Control Accounting, dated May 1, 2007.

Based on our review, nothing came to our attention that caused us to believe that (1) the Performance
Summary Report for the year ended September 30, 2007 is not presented, in all material respects, in
conformity with ONDCP's Circular, Drug Control Accounting (May I, 2007), or that (2) management's
assertions referred to above are not fairly stated, in all material respects, based on the criteria set forth in
ONDCP's Circular, Drug Control Accounting (May 1,2007).

This report is intended solely for the information and use of the management of DHS and USCG, the
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




February 4, 2008




                                  K..-r..1G LLP aU S mi:..d ft3l'            ht11~'1ne ~ Ifl, l3. 'r.~ U S.
                                  lHelili)~r f!flll   KP".it:.   ,1~:n\.1~   ,,-,,:1 ,
                                                                                   'li "1"~ ~(J~"l' va.
         I. PERFORMANCE INFORMATION

Decision Unit 1: Primary Outcome Measure

NOTE: Although the Coast Guard appropriation is apportioned along budget decision
unit lines (i.e. Acquisitions, Construction & Improvements (AC&I), Operating Expenses
(OE), Research Development Testing and Evaluation (RDT&E), and Reserve Training
(RT)), the Coast Guard does not manage performance along decision unit lines. This is
impractical due to the multi-mission performance of our assets, which transcends budget
decision units.

 The Coast Guard’s drug interdiction performance is best summarized by the lead outcome
measure of the program. That measure is the central focus of our Performance Summary
Report. The Coast Guard Drug Interdiction Program has a suite of metrics that support
the lead outcome measure. The lead outcome measure and its supporting metrics suite
were validated during a 2007 PART Evaluation.

Measure: Cocaine Removal Rate

Table 1: Cocaine Removal Rate
      FY      FY 2004          FY 2005          FY 2006         FY 2007          FY 2007          FY 2008
     2003      Actual           Actual           Actual          Target           Actual           Target
    Actual
     N/A        30.7%           27.3%            25.3%            26.0%        31.4% (est.)1       28.0%

 (1) Describe the measure. In doing so, provide an explanation of how the measure (1) reflects the purpose of
the program, (2) contributes to the National Drug Control Strategy, and (3) is used by management of the
program. This description should include sufficient detail to permit non-experts to understand what is being
measured and why it is relevant to the agency’s drug control activities. 2

The goal of the Coast Guard’s Drug Interdiction program is to reduce the supply of illegal
drugs by denying smugglers the use of air and maritime routes by projecting an effective
law enforcement presence in and over the Caribbean Sea, the Gulf of Mexico and the
Eastern Pacific Ocean. The Coast Guard’s primary outcome measure, the Cocaine
Removal Rate, tells the program how effective it is at disrupting the flow of cocaine that is
traveling via non-commercial maritime means toward the United States. The more cocaine
bound for the U.S. that the Coast Guard removes, the less supply of cocaine will be
available within the U.S. The cocaine removal rate is calculated by dividing the total
amount of cocaine removed by the Coast Guard by the non-commercial maritime
movement of cocaine towards the U.S.

The 2007 National Drug Control Strategy set an interagency, Transit Zone removal rate
1
  The Cocaine Removal Rate estimate for FY 2007 is based on the actual quantity of cocaine removed in FY
2007 and the non-commercial maritime cocaine flow towards the U.S. from 2006. The non-commercial
maritime flow towards the U.S. for 2007 will be available following the publication of the Interagency
Assessment of Cocaine Movement in July 2008.
2
  Requirements 1 through 4 in this section are drawn from the ONDCP Drug Accounting Circular.
goal for cocaine of 40%. With over 80% of the cocaine moving through the Transit Zone
via non-commercial maritime means, the higher that Coast Guard’s cocaine removal rate,
the less cocaine needs to be removed by our partner agencies to achieve that 40% target.
The Drug Interdiction program managers monitor the cocaine removal rate, watching for
both changes in Coast Guard removals as well as increases or decreases in flow. Any
changes are then diagnosed to determine the cause and to develop strategies to continue to
increase the removal rate. Factors that can impact the removal rate include, but are not
limited to, changing tactics and routes by the drug trafficking organizations, increased or
decreased patrol effort by the Coast Guard or its drug interdiction partner agencies/nations,
the availability, quality and timeliness of tactical intelligence, and the implementation of
new capabilities (Airborne Use of Force, for example).
(2) Provide narrative that examines the FY 2007 actual performance results with the FY 2007 target, as well
as prior year actuals. If the performance target was not achieved for FY 2007, the agency should explain why
this is the case. If the agency has concluded it is not possible to achieve the established target with available
resources, the agency should include recommendations on revising or eliminating the target.3

In FY 2007, the Coast Guard set a new record with 355,754.6 pounds of cocaine removed,
up from 287,035.4 pounds last year and 6.6 percent higher than our previous record set in
FY 2005. Based on the 2006 flow, the Coast Guard expects to exceed its 26 percent target
by as much as 4-6 percent. That would make FY 2007 the fourth consecutive year in
which the Coast Guard exceeded its annual target. At 28 percent, the FY 2008 target is the
highest removal rate target the Coast Guard has ever set. This target remains ambitious,
yet achievable given the tremendous success the Coast Guard has experienced over the past
four years.

Critical to the Coast Guard’s successful drug interdiction efforts were the numerous
enforcement partnerships, such as the deployment of Coast Guard Law Enforcement
Detachments aboard U.S. Navy and allied warships, and increased international, inter-
department and inter-agency cooperation/coordination, such as the joint investigation
PANAMA EXPRESS, which has produced tactical, actionable intelligence.

(3) The agency should describe the performance target for FY 2008 and how the agency plans to meet this
target. If the target in FY 2007 was not achieved, this explanation should detail how the agency plans to
overcome prior year challenges to meet targets in FY 2008.

The Coast Guard’s target for FY 2008 is to remove 28 percent of the cocaine moving via
non-commercial maritime means towards the U.S. To meet this target, the Coast Guard
will continue to source major cutters, airborne use of force capable helicopters, long range
maritime patrol aircraft, and law enforcement detachments to drug detection, monitoring
and interdiction operations in the Transit Zone, and push further expansion of the airborne
use of force program with our US and Allied Naval partners.



3
    If FY 2007 actuals are not available by the recommended deadline for agencies to submit materials to the
                     st
OIG (December 31 ), the most recently available actuals can be used as an acceptable substitute. Agencies
need only provide actuals starting in FY 2003.
(4) The agency should describe the procedures used to ensure performance data for this measure are accurate,
complete, and unbiased in presentation and substance. The agency should also describe the methodology used
to establish targets and actuals, as well as the data source(s) used to collect information.

The data that is used to calculate the Coast Guard’s cocaine removal rate is drawn from
two independent sources. The amount of cocaine removed by the Coast Guard is the sum
of all the cocaine that is physically seized by Coast Guard personnel and all the cocaine
lost to the drug trafficking organizations due to the Coast Guard’s efforts. This latter
amount is often an intelligence-based estimate of the quantity of cocaine onboard a given
vessel that is burned, jettisoned, or scuttled in an attempt to destroy evidence when Coast
Guard presence is detected. Cocaine removals are drawn from the Consolidated
Counterdrug Database (CCDB). The CCDB is recognized by the Office of National Drug
Control Policy (ONDCP) as the primary database for tracking cocaine movement. The
data entered into the CCDB is approved through an interagency vetting process. Although
the cocaine removals are originally reported in pounds, the Coast Guard converts the
removal to metric tons to compute the cocaine removal rate. The non-commercial
maritime flow of cocaine towards the U.S. is extracted from the Interagency Assessment of
Cocaine Movement (IACM). The IACM is prepared for ONDCP by the Defense
Intelligence Agency. All data that is contained within these two sources are deemed to be
accurate, complete, and unbiased in presentation and substance. The Coast Guard also
issues a Federal Manager’s Financial Integrity Act (FMFIA) Section 2 assurance statement
each year that confirms the integrity of our performance information and the effectiveness
and efficiency of Coast Guard mission operations.

At least annually, the Coast Guard’s Office of Law Enforcement and Office of
Performance Management Assessment review all the assumptions that factor into the
setting of its out-year targets, makes adjustments as necessary, and forwards the new target
recommendations to the Assistant Commandant for Operations for final review and
approval. The key factors that drive the target setting process are the estimated out-year
cocaine flow, the availability of Coast Guard resources (mainly major cutters and long
range maritime patrol aircraft), and any changes in Coast Guard capabilities, authorities, or
partnerships that may impact cocaine removals.
       II. MANAGEMENT’S ASSERTIONS


The Report should include a letter in which an accountable agency official makes the
following assertions regarding the information presented above:

   (1) Performance reporting system is appropriate and applied – The agency has a
   system to capture performance information accurately and that system was properly
   applied to generate the performance data.

Yes. The Coast Guard performance reporting system was reviewed in a 2007 Independent
Program Evaluation by the Center for Naval Analyses, a 2007 OMB PART evaluation, and
during the generation of the Coast Guard FMFIA Section 2 Assertion Statement for
Operational Effectiveness and Efficiency. All reviews supported reasonable assurance on
the appropriateness and application of the performance reporting system.


   (2) Explanations for not meeting performance targets are reasonable – The
   explanation(s) offered for failing to meet a performance target and for any
   recommendations concerning plans and schedules for meeting future targets or for
   revising or eliminating performance targets are reasonable.

N/A


   (3) Methodology to establish performance targets is reasonable and applied – The
   methodology described above to establish performance targets for the current year is
   reasonable given past performance and available resources.

Yes. A robust quantitative and qualitative process that reviews intelligence, logistics,
policy, capability, emerging trends, past performance, and capacity variables impacting
mission performance is used to establish performance targets. Targets generated by the
program manager are reviewed independently by performance and budget oversight offices
at Coast Guard Headquarters, as well as the DHS Office of Program Analysis and
Evaluation, prior to entry into budget documents and the DHS Future Year Homeland
Security Program.


   (4) Adequate performance measures exist for all significant drug control activities

Yes. This was validated in the 2007 OMB PART of the Coast Guard Drug Interdiction
Program.

       - The agency has established one acceptable performance measure that covers all
four budget decision units for which a significant amount of obligations ($1,000,000 or 50
percent of the agency drug budget, whichever is less) were incurred in the previous fiscal
year.
Management should take the following criteria into account when making assertions:

(a) Data – If workload, participant, or other quantitative information supports these
    assertions, the sources of these data should be well documented. If these data are
    periodically collected, the data used in the report must be clearly identified and will
    be the most recently available.

(b) Other Estimation Methods – If professional judgment or other estimation methods are
used to make these assertions, the objectivity and strength of these estimation
 methods must be thoroughly explained and documented. These estimation methods
 should be subjected to periodic review to confirm their continued validity.

   (c) Reporting Systems – Reporting systems supporting the assertions should be
   current, reliable, and an integral part of the agency’s budget and management
   processes.

       III.     INSPECTOR GENERAL AUTHENTICATION


Agency performance information and management’s assertions should be provided to the
agency’s Inspector General (IG) for the purpose of expressing a conclusion about the
reliability of each assertion made in the report. ONDCP anticipates that this engagement
will be an attestation review, consistent with the Statements for Standards of Attestation
Engagements, promulgated by the American Institute of Certified Public Accountants.
Report Distribution



      Department of Homeland Security
      Secretary 

      Deputy Secretary 

      Chief of Staff 

      Deputy Chief of Staff 

      General Counsel 

      Executive Secretary 

      Director, GAO/OIG Audit Liaison 

      Assistant Secretary for Policy 

      Assistant Secretary for Legislative Affairs 

      Assistance Secretary for Public Affairs 

      Under Secretary for Management 

      Chief Financial Officer 


      Office of National Drug and Control Policy
      Associate Director for Planning and Budget

      U.S. Coast Guard
      Commandant           

      Chief Financial Officer 

      USCG Audit Liaison           


      Office of Management and Budget
      Chief, Homeland Security Branch 

      DHS OIG Budget Examiner 


      Congress
      Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
